Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




MOST POWER WHEELCHAIRS IN
 THE MEDICARE PROGRAM DID
NOT MEET MEDICAL NECESSITY
        GUIDELINES




                   Daniel R. Levinson
                    Inspector General

                      July 2011
                    OEI-04-09-00260
           E X E C U T I V E             S U M M A R Y


                    OBJECTIVES
                    1. To determine the extent to which standard power wheelchairs and
                       complex rehabilitation power wheelchairs provided to Medicare
                       beneficiaries during the first half of 2007 were medically necessary
                       based on records from suppliers.
                    2. To determine whether records from physicians who prescribed
                       power wheelchairs supported the medical necessity of power
                       wheelchairs as documented by suppliers.


                    BACKGROUND
                    From 1999 to 2003, Medicare payments for power wheelchairs increased
                    approximately 350 percent, from $259 million to $1.2 billion annually,
                    raising concerns about inappropriate Medicare payments. In response,
                    in 2005 and 2006 the Centers for Medicare & Medicaid Services (CMS)
                    revised its policies related to power wheelchair coverage and coding.
                    After these changes, Medicare’s annual payments for power wheelchairs
                    decreased to a relative low of $658 million in 2007. However,
                    expenditures rose to $779 million in 2008 and $723 million in 2009.
                    Beneficiaries are eligible to receive power wheelchairs under Medicare
                    Part B coverage of durable medical equipment (DME). Beneficiaries
                    who are prescribed power wheelchairs receive them from suppliers,
                    which bill Medicare for reimbursement. Before providing a power
                    wheelchair, a supplier receives from a prescribing physician a
                    prescription for the power wheelchair and documentation from the
                    beneficiary’s medical record to support the medical necessity of a power
                    wheelchair.
                    We selected a sample of 375 claims for standard and complex
                    rehabilitation power wheelchairs supplied to beneficiaries in the first
                    half of 2007 and conducted a medical record review. Based on suppliers’
                    records, reviewers determined whether each claim was medically
                    necessary and supported by sufficient documentation. They also
                    reviewed records from prescribing physicians. For claims without errors
                    based on suppliers’ records, reviewers determined whether the
                    prescribing physicians’ records supported the suppliers’ power
                    wheelchair claims.




OEI-04-09-00260     MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   i
E   X   E C     U T   I   V   E       S   U M     M   A    R Y




                                  FINDINGS
                                  Sixty-one percent of power wheelchairs provided to Medicare
                                  beneficiaries in the first half of 2007 were medically unnecessary or
                                  had claims that lacked sufficient documentation to determine
                                  medical necessity. Based on records submitted by suppliers that
                                  provided power wheelchairs, 9 percent of power wheelchairs were
                                  medically unnecessary and another 52 percent had claims that were
                                  insufficiently documented to determine whether the power wheelchairs
                                  were medically necessary. Of the $189 million that Medicare allowed
                                  for power wheelchairs provided in the first half of 2007, $95 million was
                                  for power wheelchairs that were medically unnecessary or had claims
                                  that were insufficiently documented. Beneficiaries who received
                                  medically unnecessary power wheelchairs needed a less expensive type
                                  of equipment or a different type of power wheelchair. For 2 percent of
                                  claims, a less expensive type of equipment (e.g., a scooter or a manual
                                  wheelchair) should have been provided. For the remaining 7 percent of
                                  claims, the beneficiaries should have received a different type of power
                                  wheelchair than was provided.
                                  Medical necessity and documentation errors varied by power
                                  wheelchair type. Claims for standard and complex rehabilitation
                                  power wheelchairs had similar overall error rates (61 and 56 percent,
                                  respectively). However, standard power wheelchairs were less likely to
                                  be medically unnecessary than complex rehabilitation power
                                  wheelchairs (8 and 24 percent, respectively). Conversely, claims for
                                  standard power wheelchairs were more likely to have insufficient
                                  documentation than claims for complex rehabilitation power
                                  wheelchairs (53 and 32 percent, respectively). Because standard power
                                  wheelchairs accounted for most of Medicare’s power wheelchair
                                  expenditures, errors among claims for such wheelchairs resulted in
                                  higher inappropriate payments than did errors among claims for
                                  complex rehabilitation power wheelchairs ($90 million and $5 million,
                                  respectively).
                                  Prescribing physicians’ records do not support the medical necessity
                                  of most power wheelchairs. Seventy-eight percent of claims without
                                  supplier-record errors were not supported by records provided by
                                  physicians who prescribed the power wheelchairs. That is, while
                                  suppliers’ records indicated that power wheelchairs were medically
                                  necessary, physicians’ records indicated that they were medically
                                  unnecessary, or physicians’ records provided insufficient documentation or


    OEI-04-09-00260               MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   ii
E   X   E C       U T   I   V    E      S   U M      M   A   R Y




                                no documentation of medical necessity. In most cases, physicians’ records
                                had insufficient documentation to support the medical necessity of power
                                wheelchairs. Less often, physicians’ records contradicted suppliers’
                                records.


                                RECOMMENDATIONS
                                Our review found that power wheelchairs paid for by Medicare are not
                                always medically necessary and that claims for power wheelchairs
                                frequently have insufficient documentation to support medical
                                necessity. We found that of the $189 million that Medicare allowed for
                                power wheelchairs provided in the first half of 2007, $95 million was for
                                power wheelchairs that were medically unnecessary or had claims that
                                were insufficiently documented. Although CMS has taken steps since
                                2007 to decrease errors among suppliers of power wheelchairs and other
                                DME, Medicare has paid significantly more in recent years for power
                                wheelchairs than it did in 2007. These increases may indicate that
                                CMS continues to pay for power wheelchairs that are not medically
                                necessary and/or that have claims that do not meet documentation
                                requirements.
                                Two previous OIG reports based on the same sample of power
                                wheelchairs found problems with coding and with documentation
                                requirements. This report shows additional problems with suppliers’
                                compliance with Medicare requirements. Across all three reports,
                                80 percent of claims for power wheelchairs supplied to beneficiaries in
                                the first half of 2007 did not meet Medicare requirements. Additionally,
                                OIG has issued previous reports identifying substantial vulnerabilities
                                in the Medicare Durable Medical Equipment, Prosthetics, Orthotics,
                                and Supplies (DMEPOS) benefit.
                                Based on our findings and prior work, we recommend that CMS:
                                Enhance reenrollment screening standards for current DMEPOS
                                suppliers. Federal regulations place new DMEPOS suppliers at a risk
                                level of “high,” whereas currently enrolled DMEPOS suppliers are placed
                                at a risk level of “moderate.” We believe that currently enrolled DMEPOS
                                suppliers should be subject to the same enrollment screening standards as
                                newly enrolling DMEPOS suppliers and should also be placed at the risk
                                level of “high.”




OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   iii
E   X   E C     U T   I   V   E       S   U M     M   A   R Y




                                  Review records from sources in addition to the supplier, such as the
                                  prescribing physician, to determine whether power wheelchairs are
                                  medically necessary. CMS should direct its contractors to review records
                                  from prescribing physicians, in addition to those from suppliers.
                                  Continue to educate power wheelchair suppliers and prescribing
                                  physicians to ensure compliance with clinical coverage criteria. In
                                  2009, CMS began requiring that suppliers meet quality standards to be
                                  accredited. Additionally, in recent years CMS has developed a variety of
                                  educational materials for power wheelchair suppliers and prescribing
                                  physicians. However, our results indicate that CMS should continue to
                                  educate, and promote collaboration between, suppliers and physicians to
                                  ensure that beneficiaries receive medically necessary power wheelchairs
                                  that are appropriate for their mobility needs. We suggest that CMS focus
                                  its educational efforts for suppliers and prescribing physicians on the
                                  following topics:
                                  •   requirements for determining and documenting the medical
                                      necessity of a power wheelchair,
                                  •   requirements for determining the most appropriate power
                                      wheelchair for a beneficiary, and
                                  •   collaboration between supplier and physician to determine the
                                      most appropriate power wheelchair for a beneficiary.
                                  Review suppliers of sampled claims we found to be in error.


                                  AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                                  RESPONSE
                                  CMS concurred with the second, third, and fourth recommendations.
                                  CMS did not concur with the first recommendation. In response to the
                                  first recommendation, CMS noted that it has in place other tools that
                                  allow for increased scrutiny of some current suppliers. Based on this
                                  report’s findings, which reinforce the findings of multiple OIG reports in
                                  recent years identifying substantial vulnerabilities in the Medicare
                                  DMEPOS benefit, we maintain that all current DMEPOS suppliers
                                  should be subject upon reenrollment to the screening standards for the
                                  risk level of “high.”




    OEI-04-09-00260               MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   iv
           T A B L E            O F           C O N T E N T S



                  EXECUTIVE SUMMARY .....................................i



                  INTRODUCTION ............................................ 1



                  F I N D I N G S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19
                             Sixty-one percent of power wheelchairs provided to
                             Medicare beneficiaries in the first half of 2007 were medically
                             unnecessary or had claims that lacked sufficient documentation
                             to determine medical necessity . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

                             Medical necessity and documentation errors
                             varied by power wheelchair type . . . . . . . . . . . . . . . . . . . . . . . . . . . 22

                             Prescribing physicians’ records do not support the
                             medical necessity of most power wheelchairs. . . . . . . . . . . . . . . . . 25


                  R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28
                             Agency Comments and Office of Inspector General Response. . . . 31


                  A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
                             A: Clinical Coverage Criteria for Selected
                                Power Wheelchairs. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32

                             B: Clinical Coverage Criteria for Selected Power
                                Wheelchair Power Options and Accessories . . . . . . . . . . . . . . . 36

                             C: Population and Sample Sizes by Stratum, First Half
                                of 2007 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

                             D: Estimates and Confidence Intervals . . . . . . . . . . . . . . . . . . . . . 40

                             E: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 44


                  A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 48




OEI-04-09-00260          MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES
          I N T R O D U C T I O N




                    OBJECTIVES
                    1. To determine the extent to which standard power wheelchairs and
                       complex rehabilitation power wheelchairs provided to Medicare
                       beneficiaries during the first half of 2007 were medically necessary
                       based on records from suppliers.
                    2. To determine whether records from physicians who prescribed
                       power wheelchairs supported the medical necessity of power
                       wheelchairs as documented by suppliers.


                    BACKGROUND
                    From 1999 to 2003, Medicare payments for power wheelchairs increased
                    approximately 350 percent, from $259 million to $1.2 billion annually,
                    while overall Medicare program expenditures rose 28 percent.1, 2 This
                    increase caused concern within the Office of Inspector General (OIG),
                    Government Accountability Office (GAO), and Centers for Medicare &
                    Medicaid Services (CMS) about inappropriate Medicare payments. 3 In
                    response, CMS revised in 2005 and 2006 its Medicare policies related to
                    power wheelchair coverage and coding.4 After these changes,
                    Medicare’s annual payments for power wheelchairs decreased to a
                    relative low of $658 million in 2007. However, expenditures rose to
                    $779 million in 2008 and $723 million in 2009.
                    Beneficiaries are eligible to receive power wheelchairs under Medicare
                    Part B coverage of durable medical equipment (DME). 5 Most
                    beneficiaries who require power wheelchairs are unable to walk and




                      1 “Medicare payments” refers to the total Medicare-allowed amounts. Medicare pays

                    80 percent of the fee schedule amount, and the Medicare beneficiary is responsible for
                    paying the remaining 20 percent.
                      2   71 Fed. Reg. 17021, 17022 (Apr. 5, 2006).
                      3 For example, Department of Health & Human Services (HHS) OIG,   Medicare Payments
                    for Power Wheelchairs, OEI-03-02-00600, April 2004; GAO, CMS’s Program Safeguards Did
                    Not Deter Growth in Spending for Power Wheelchairs, GAO-05-43, November 2004; and
                    CMS and OIG, New Efforts Aimed at Stopping Abuse of the Power Wheelchair Benefit in
                    the Medicare Program, September 9, 2003, accessed at
                    http://oig.hhs.gov/publications/docs/press/2003/090903release.pdf on October 25, 2010.
                      4 CMS, Pub. No. 11272P, 2006 Fee Schedule Amounts for Power Mobility Devices Have

                    Been Refined, November 2006.
                      5 42 CFR § 410.38.




OEI-04-09-00260     MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                1
 I   N T    R O   D   U   C T    I   O   N



                          have severe upper body weakness.6 Beneficiaries who are prescribed
                          power wheelchairs by their physicians receive them from DME
                          suppliers, which bill Medicare for reimbursement. Prior to January 1,
                          2011, the beneficiary was able to choose to rent or purchase the power
                          wheelchair. 7 Almost all beneficiaries chose to purchase their power
                          wheelchairs. 8
                          Power Wheelchair Types
                          Medicare covers more than 650 models of power wheelchairs. 9 Each
                          model is assigned to 1 of 42 power wheelchair HCPCS codes. 10 The
                          HCPCS code assignment is based on the model’s performance, weight
                          capacity, seat type, portability, and power seating system capability. 11
                          In the first half of 2007, two types of power wheelchairs—standard and
                          complex rehabilitation—accounted for over 80 percent of all Medicare
                          expenditures for power wheelchairs. 12, 13 These two types are covered
                          by Medicare under 27 HCPCS codes that include nearly 400 power
                          wheelchair models.14

                            6 CMS’s Medicare Learning Network, Medicare Coverage of Power Mobility Devices:
                          Power Wheelchairs and Power Operated Vehicles, April 2006.
                            7 Effective for items furnished on or after January 1, 2011, section 3136(a)(2) of the

                          Affordable Care Act (ACA) eliminated the lump-sum (up-front) purchase option for standard
                          power wheelchairs. Medicare pays for a maximum of 13 continuous months of rental, and
                          the supplier must transfer ownership to the beneficiary after the 13th month. For complex
                          rehabilitation power wheelchairs, payment can continue to be made on a lump-sum
                          purchase basis or monthly rental basis.
                            8 In the first half of 2007, new power wheelchair purchases accounted for 95 percent of

                          Medicare power wheelchair expenditures. OIG analysis of claims from the National Claims
                          History file submitted under Healthcare Common Procedure Coding System (HCPCS) codes
                          K0823–K0864 with dates of service from January 1 to June 30, 2007.
                            9 Medicare Pricing, Data Analysis, and Coding (PDAC) contractor,   Motorized Wheelchair
                          Product Classification List, April 21, 2010.
                            10 Power wheelchair HCPCS codes are K0813–K0864. Within that range, Medicare has
                          not assigned power wheelchairs to the HCPCS codes K0817–K0819, K0832–K0834, and
                          K0844–K0847.
                            11 Medicare PDAC contractor, Power Mobility Device Coding Guidelines. Accessed at

                          https://www.dmepdac.com/resources/articles/2006/08_14_06.pdf on September 20, 2010.
                            12 Standard power wheelchairs are HCPCS code K0823, and complex rehabilitation

                          power wheelchairs are HCPCS codes K0835–K0843 and K0848–K0864. DMEPOS Supplier
                          Quality Standards, August 2007, p. 11. The remaining 20 percent of claims were for power
                          wheelchairs with characteristics similar to those of standard power wheelchairs; these
                          power wheelchairs are reimbursed under HCPCS codes K0813–K0831.
                            13 OIG analysis of claims from the National Claims History file submitted under HCPCS

                          codes K0823 and K0835–K0864 with dates of service from January 1 to June 30, 2007,
                          processed as of June 30, 2007.
                            14 PDAC contractor,   Motorized Wheelchair Product Classification List, April 21, 2010.



OEI-04-09-00260           MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                   2
  I   N T    R O   D   U   C T       I   O   N



                           Standard power wheelchairs. Standard power wheelchairs are designed
                           for daily use to provide basic mobility for persons weighing less than
                           300 pounds. Accessories, such as armrests and oxygen tank carriers,
                           may be added to standard power wheelchairs. 15
                           In the first half of 2007, standard power wheelchairs accounted for
                           nearly three-quarters of Medicare’s claims and expenditures for power
                           wheelchairs. 16 Medicare covers 100 models of standard power
                           wheelchairs under HCPCS code K0823. 17
                           Medicare’s 2007 fee schedule amount for standard power wheelchairs
                           was $4,024. 18 In January 2009, the fee schedule amount for such
                           wheelchairs was reduced by 9.5 percent, to $3,641. 19
                           Complex rehabilitation power wheelchairs. To receive a complex
                           rehabilitation power wheelchair, a beneficiary must meet criteria
                           beyond those required to receive a standard power wheelchair. The
                           beneficiary’s mobility limitation must either (1) require one or more
                           power options or a ventilator; or (2) result from a neurological condition,
                           muscle disease, or skeletal deformity.20 The beneficiary must also have
                           received a specialty evaluation, and the beneficiary’s weight should be




                             15 In the first half of 2007, standard power wheelchairs were supplied with an average of
                           two accessories. Medicare’s average allowed amount for an accessory for a standard power
                           wheelchair was $234. OIG analysis of claims from the National Claims History file
                           submitted under HCPCS code K0823 with dates of service from January 1 to June 30, 2007,
                           processed as of June 30, 2007.
                             16 OIG analysis of claims from the National Claims History file submitted under HCPCS

                           code K0823 with dates of service from January 1 to June 30, 2007, processed as of June 30,
                           2007.
                             17   Medicare PDAC contractor, Motorized Wheelchair Product Classification List, loc. cit.
                             18 DME, Prosthetics, Orthotics, and Supplies (DMEPOS) 2007 Fee Schedule. Accessed
                           at http://www.cms.gov/DMEPOSFeeSched/LSDMEPOSFEE/list.asp#TopOfPage on June 1,
                           2011.
                              19 In July 2008, the Medicare Improvements for Beneficiaries and Providers Act of 2008

                           (MIPPA) delayed and reformed the Medicare DMEPOS Competitive Bidding Program. To
                           offset the cost savings lost by this delay, MIPPA reduced fee schedule amounts in
                           January 2009 by 9.5 percent. In January 2011, Medicare began to use prices from the
                           Round 1 Rebid of the Competitive Bidding Program in nine geographical areas. Under the
                           program, Medicare and its beneficiaries will pay between $2,276 and $2,716 for standard
                           power wheelchairs.
                             20 Local Coverage Determination (LCD) for Power Mobility Devices, “Indications and
                           Limitations of Coverage and/or Medical Necessity.” Also, see Medicare’s LCD for
                           Wheelchair Options/Accessories.



OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                      3
  I   N T    R O   D   U   C T      I   O   N



                           less than or equal to the weight capacity of the power wheelchair type
                           that is provided. 21
                           In the first half of 2007, complex rehabilitation power wheelchairs
                           accounted for less than 7 percent of Medicare power wheelchair claims
                           and expenditures. 22, 23 Medicare covers 299 models of complex
                           rehabilitation power wheelchairs under 26 HCPCS codes.24
                           As with standard power wheelchairs, a variety of accessories may be
                           added to complex rehabilitation power wheelchairs. Unlike standard
                           power wheelchairs, complex rehabilitation power wheelchairs can also
                           be upgraded with power options (e.g., a power seating system) or many
                           other electronic features (e.g., a device to enable the user to control the
                           chair by sipping and puffing through a straw). 25 We refer collectively to
                           the power options and other electronic features that can be added to
                           complex rehabilitation power wheelchairs as “power options.”
                           Medicare’s 2007 fee schedule amounts for complex rehabilitation power
                           wheelchairs ranged from $4,132 to $11,965.26 In January 2009, fee
                           schedule amounts for complex rehabilitation power wheelchairs were
                           reduced by 9.5 percent, to a range of $3,739 to $10,828. 27
                           Medicare Clinical Coverage Criteria for Power Wheelchairs, Power Options,
                           and Accessories
                           General provisions of the Social Security Act (the Act) govern Medicare
                           reimbursement for all items and services, including power wheelchairs.



                             21LCD for Power Mobility Devices, “Indications and Limitations of Coverage and/or
                           Medical Necessity.”
                            22 Complex rehabilitation power wheelchairs include HCPCS codes K0835–K0864.
                             23 OIG analysis of claims from National Claims History file submitted under HCPCS
                           codes K0835–K0864 with dates of service from January 1 to June 30, 2007, processed as of
                           June 30, 2007.
                             24 Medicare PDAC contractor, Motorized Wheelchair Product Classification List, loc. cit.
                             25 In the first half of 2007, complex rehabilitation power wheelchairs were supplied with
                           an average of five power options and/or accessories. Medicare’s average allowed amount for
                           a power option or an accessory supplied with a complex rehabilitation power wheelchair
                           was $995. OIG analysis of claims from National Claims History file associated with claims
                           submitted under HCPCS codes K0835–K0864 with dates of service from January 1 to
                           June 30, 2007, processed as of June 30, 2007.
                             26   DMEPOS 2007 Fee Schedule ceiling amounts for HCPCS codes K0835 and K0864.
                             27 In July 2008, MIPPA delayed and reformed the Medicare DMEPOS Competitive
                           Bidding Program. To offset the cost savings lost by this delay, MIPPA reduced fee schedule
                           amounts in January 2009 by 9.5 percent. MIPPA also exempted complex rehabilitation
                           power wheelchairs from the Competitive Bidding Program.



OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                  4
   I   N T    R O   D   U   C T         I   O   N



                            •        Section 1862(a)(1)(A) of the Act states that no payment may be made
                                     for items or services that “are not reasonable and necessary for the
                                     diagnosis or treatment of illness or injury or to improve the
                                     functioning of a malformed body member.” 28
                            •        Section 1833(e) of the Act requires that suppliers furnish “such
                                     information as may be necessary in order to determine the amounts
                                     due” to receive Medicare payment. 29
                            Coverage criteria for power wheelchairs are found in Medicare’s
                            National Coverage Determination (NCD) for Mobility-Assistive
                            Equipment and LCD for Power Mobility Devices. 30 The NCD
                            establishes an approach to coverage that requires a sequential analysis
                            of a patient’s mobility status, and the LCD integrates this approach to
                            establish a comprehensive standard for the provision of power
                            wheelchairs. Relevant sections of the NCD and LCD are included in
                            Appendix A.
                            Until 2005, CMS used a “bed- or chair-confined” standard to establish
                            the medical necessity of a power wheelchair. 31 In 2005, CMS published
                            revised criteria that more closely tied Medicare coverage for a power
                            wheelchair to a beneficiary’s medical condition and ability to function in
                            the home. According to the revised coverage criteria, power wheelchairs
                            and other mobility-assistive equipment are medically necessary for
                            beneficiaries who have mobility limitations that impair their
                            participation in mobility-related activities of daily living, such as using
                            the toilet, feeding, dressing, and bathing. A power wheelchair is


                                28 42 CFR § 411.15(k)(1).
                                29 42 CFR § 424.5(a)(6). This requirement applies to the entity that submits the claim
                            for payment to Medicare; in the case of power wheelchairs, the supplier submits the claim.
                                30
                                 Medicare National Coverage Determinations Manual, § 280.3. Mobility-assistive
                            equipment is a DME category that includes canes, crutches, walkers, manual wheelchairs,
                            scooters, and power wheelchairs. The term “power mobility devices” includes power-
                            operated vehicles (scooters) and power wheelchairs.
                              The LCD for Power Mobility Devices includes detail beyond that in the NCD regarding
                            nonclinical coverage criteria (i.e., documentation) and clinical coverage criteria for power
                            wheelchairs. Medicare’s four DME Medicare Administrative Contractors (MAC) have
                            adopted the same LCD for Power Mobility Devices. The relevant LCD policy numbers are
                            L21271, L23613, L23598, and L27239.
                              31 CMS’s Medicare Learning Network, loc. cit. Until 2005, a power wheelchair was

                            covered when the beneficiary’s condition was such that, without the use of a wheelchair, the
                            beneficiary would otherwise be bed- or chair-confined; a wheelchair was medically
                            necessary and the beneficiary was unable to operate a wheelchair manually; and the
                            beneficiary was capable of safely operating the controls for the power wheelchair.



OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                      5
I   N T    R O    D   U   C T     I   O   N



                           medically necessary when a beneficiary’s mobility deficit cannot be
                           addressed using other types of mobility-assistive equipment, such as a
                           cane, manual wheelchair, or scooter. Additional criteria for a power
                           wheelchair include:
                           •     a beneficiary or a beneficiary’s caregiver must be willing and able,
                                 physically and mentally, to operate a power wheelchair; and
                           •     a beneficiary’s home must provide adequate access between rooms,
                                 maneuvering space, and surfaces for the operation of the power
                                 wheelchair that is provided.
                           To qualify for specific types of power wheelchairs, a beneficiary must
                           meet additional criteria.32 For example, his or her weight must be less
                           than or equal to the capacity of the power wheelchair. Additionally,
                           some power wheelchairs are medically necessary only when a
                           beneficiary has a certain diagnosis.
                           Power options and accessories are covered only if the beneficiary has a
                           power wheelchair that meets Medicare coverage criteria. 33 Medicare’s
                           LCD for Wheelchair Options/Accessories specifies additional coverage
                           criteria. See Appendix B for criteria for some power options and
                           accessories.
                           Prescribing and Providing Power Wheelchairs to Medicare Beneficiaries
                           A Medicare beneficiary may be prescribed a power wheelchair by a
                           physician after the physician conducts a face-to-face examination.
                           During this examination, the physician assesses the beneficiary’s
                           medical condition and mobility needs and determines whether a power
                           wheelchair is medically necessary as part of an overall treatment
                           plan.34 CMS requires that a beneficiary who needs a complex
                           rehabilitation power wheelchair receive an additional specialty
                           evaluation, which must be performed by a medical professional with




                               32 These are detailed in the LCD for Power Mobility Devices.
                               33 Medicare’s LCD for Wheelchair Options/Accessories.
                              34 42 CFR § 410.38(c)(2)(i). CMS has stated: “We believe the beneficiary’s physician or

                           treating practitioner is in the best position to evaluate and document the beneficiary’s
                           clinical condition and PMD [power mobility device] medical needs, and good medical
                           practice requires that this evaluation be adequately documented.” 71 Fed. Reg. 17024
                           (Apr. 5, 2006).



OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                    6
 I   N T     R O   D   U   C T    I     O   N




                           experience in evaluations for rehabilitation power wheelchairs, such as
                           an occupational or physical therapist. 35
                           From a prescribing physician, a supplier receives a prescription for a
                           power wheelchair and documentation from the beneficiary’s medical
                           record to support the medical necessity of the power wheelchair.36
                           Supporting medical documentation includes the report from the face-to-
                           face examination and any other parts of the beneficiary’s medical record
                           needed to support the medical necessity of the power wheelchair. For
                           complex rehabilitation power wheelchairs, the specialty evaluation
                           report is part of the supporting medical documentation. Based on the
                           prescription and supporting medical documentation, the supplier
                           recommends a type of power wheelchair for the beneficiary; the type
                           must be approved by the prescribing physician.37 The supplier is also
                           responsible for assessing the beneficiary’s home environment before or
                           during the delivery of the power wheelchair to verify that the
                           beneficiary can adequately maneuver the chair in his or her home.38
                           CMS Activities To Improve Compliance With Medicare Power Wheelchair
                           Requirements
                           CMS is responsible for paying Medicare claims and ensuring the
                           integrity of those payments. CMS employs contractors that perform
                           many functions to prevent, identify, and recover inappropriate Medicare
                           payments for power wheelchairs. For example, DME MACs publish a
                           variety of educational materials for suppliers and prescribing
                           physicians. They also host educational symposia, “ask-the-contractor”
                           calls, Web-hosted seminars, and online tutorials (podcasts). The DME
                           MACs also publish “Dear Physician” letters for suppliers to educate
                           physicians on coverage criteria for specific items, including power
                           mobility devices.
                           Additionally, MIPPA required all DMEPOS suppliers to meet quality
                           standards for Medicare accreditation by September 30, 2009. The
                           standards that CMS developed include business standards in areas such
                           as suppliers’ administration, consumer services, and product safety.
                           Suppliers must also meet product-specific standards. For example,


                             35 LCD for Power Mobility Devices. The specialty evaluation report must document the

                           medical necessity for the power wheelchair and each recommended option and accessory.
                             36 LCD for Power Mobility Devices, “Documentation Requirements.”
                             37 Ibid.
                             38 Ibid.




OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                7
     I   N T      R O   D   U     C T      I   O   N



                                power wheelchair suppliers are required to “provide the beneficiary with
                                appropriate equipment for trial and simulation, when necessary” and
                                “verify that seating, positioning and specialty assistive technology have
                                been evaluated and documented in the beneficiary’s record.” 39, 40
                                In February 2011, CMS published a final rule implementing provisions
                                of ACA that establish procedures under which screening is conducted
                                for providers of medical or other services and suppliers in the Medicare
                                program. 41 Section 1866(j)(2)(B) of the Act requires the Secretary to
                                determine the level of screening to be conducted according to the risk of
                                fraud, waste, and abuse with respect to the category of provider or
                                supplier. CMS created three levels of risk: limited, moderate, and
                                high. 42 New DMEPOS suppliers were placed at the “high” risk level,
                                while currently enrolled DMEPOS suppliers were placed at the
                                “moderate” risk level. 43
                                Medical Record Review by Medicare Contractors
                                Medicare contractors are required to analyze providers’ and suppliers’
                                compliance with Medicare coverage and coding requirements and to
                                take corrective action when instances of noncompliance are identified. 44
                                As part of this, contractors conduct medical reviews of supporting
                                documentation for selected claims to determine whether the claims met
                                Medicare coverage criteria. 45 Every year, the Medicare Comprehensive
                                Error Rate Testing (CERT) contractor reviews medical records to


                                  39 DMEPOS Supplier Quality Standards. Accessed at

                                http://www.cms.hhs.gov/MedicareProviderSupEnroll/Downloads/DMEPOSAccreditationSta
                                ndards.pdf on December 5, 2008.
                                  40 The requirement pertaining to equipment trials applies only to suppliers of complex
                                rehabilitation power wheelchairs.
                                  41 76 Fed. Reg. 5864, 5865 (Feb. 2, 2011).
                                  42 Screening will include a licensure check, which may include checks across State lines,

                                and the screening may also include (1) a fingerprint-based criminal background check;
                                (2) unscheduled or unannounced site visits, including preenrollment site visits; (3) database
                                checks, including checks across State lines; and other screening as the Secretary determines
                                appropriate.
                                  43 To maintain Medicare billing privileges, a DMEPOS supplier must resubmit and

                                recertify the accuracy of its enrollment information every 3 years. 42 CFR § 424.57(e).
                                  44 CMS’s Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.1.
                                  45 Contractors select claims for medical review by first selecting areas for review (e.g.,

                                providers, services) that are deemed high priority. Using claims data, the contractor
                                determines the degree to which a potential error is widespread and meets established
                                deviation indicators. If no legitimate explanation exists, the contractor selects a sample of
                                cases representative of the universe in which the problem is occurring. CMS’s Medicare
                                Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.2.



OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                       8
  I   N T    R O   D   U   C T     I   O   N



                           establish a national paid-claims error rate for the Medicare
                           Fee-for-Service program. DME MACs and other benefit integrity
                           contractors use error rates produced by the CERT contractor to target
                           their efforts to prevent improper payments. 46
                           CMS directs its contractors to collect medical records from the provider
                           or supplier submitting the claim. However, CMS does not require
                           contractors to review records from the prescribing physician or any
                           other providers that rendered care to the beneficiary. If the contractors
                           choose to collect records from these other providers, they must first or
                           simultaneously solicit the same information from the provider or
                           supplier submitting the claim.47
                           In 2006, OIG found that the CERT review of DME claims relied
                           primarily on supplier records. 48 When additional medical records from
                           physicians and other health care providers were reviewed, OIG found a
                           large number of additional errors, including claims for medically
                           unnecessary power wheelchairs, that were not identified by CMS’s
                           CERT contractor. OIG made a series of recommendations, among them
                           that the CERT contractor review all medical records (including the
                           records of prescribing physicians) necessary to determine compliance
                           with applicable medical necessity requirements. CMS concurred, and in
                           2007, its CERT contractor began asking physicians, in addition to
                           suppliers, for supporting information. 49
                           Prior Office of Inspector General Work
                           OIG has issued multiple reports in recent years identifying substantial
                           vulnerabilities among Medicare power wheelchair claims and other
                           DMEPOS claims. In April 2004, OIG reported on the medical necessity
                           of power wheelchairs provided to Medicare beneficiaries during 2001.50


                             46 CMS’s   Medicare Program Integrity Manual, Pub. No. 100-08, ch. 1, § 1.3.1.
                             47 CMS’s   Medicare Program Integrity Manual, Pub. No. 100-08, ch. 3, § 3.4.1.2.
                             48 HHS OIG,  Medical Review of Claims for the Fiscal Year 2006 Comprehensive Error
                           Rate Testing Program, A-01-07-00508, August 2008.
                             49 OIG also recommended that CMS establish a written policy to address the appropriate
                           use of clinical inference (i.e., a clinician’s interpretation of the claim’s appropriateness based
                           on the medical record, considering the full scope of the beneficiary’s circumstances). The
                           primary modification resulting from CMS’s concurrence with the recommendation was to
                           require the CERT medical reviewers to strictly follow the documentation requirements
                           outlined in the Medicare regulation, statute and policy, including LCDs, rather than
                           allowing for clinical review judgment based on billing history and other available
                           information.
                             50 HHS OIG,    Medicare Payments for Power Wheelchairs, OEI-03-02-00600, April 2004.



OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                       9
  I   N T    R O   D   U   C T     I   O   N




                           In that report, OIG found that only 13 percent of claims met Medicare’s
                           coverage criteria. After CMS revised in 2005 and 2006 its policies
                           related to power wheelchair coverage and coding, OIG began a series of
                           reports on Medicare payments for power wheelchairs provided during
                           the first half of 2007.
                           Since 2009, OIG has issued two reports that assessed compliance with
                           different Medicare requirements for power wheelchairs. Both reports
                           are based on the same sample (of standard power wheelchairs and
                           complex rehabilitation power wheelchairs supplied to Medicare
                           beneficiaries in the first half of 2007) used in this report.51 In the first
                           report, OIG found that 8 percent of claims for standard and complex
                           rehabilitation power wheelchairs from the first half of 2007 were
                           miscoded.52 OIG reviewed supplier-submitted manufacturer invoices
                           for power wheelchairs and determined whether claims were miscoded
                           (i.e., whether the HCPCS code that the supplier used to bill Medicare
                           matched the model information on the invoice). In the second report,
                           OIG found that 60 percent of claims for standard and complex
                           rehabilitation power wheelchairs did not meet Medicare documentation
                           requirements during the first half of 2007. 53 OIG determined the extent
                           to which suppliers submitted documents that included all required
                           information and whether suppliers received the documents from
                           prescribing physicians within required timeframes.
                           Further, OIG issued multiple reports between 2005 and 2009
                           identifying substantial vulnerabilities in the Medicare DMEPOS




                             51 Additionally, OIG issued a report on the power wheelchair fee schedule amounts in the
                           Medicare program. HHS OIG, Power Wheelchairs in the Medicare Program: Supplier
                           Acquisition Costs and Services, OEI-04-07-00400, August 2009.
                             52 HHS OIG, Miscoded Claims for Power Wheelchairs in the Medicare Program,

                           OEI-04-07-00403, July 2009. Power wheelchairs are assigned HCPCS codes based on the
                           manufacturers’ model information. Miscoded claims were defined as those for which the
                           suppliers billed Medicare using HCPCS codes that did not match the model information on
                           the invoices for power wheelchairs supplied to beneficiaries.
                             53 HHS OIG, Medicare Power Wheelchair Claims Frequently Did Not Meet
                           Documentation Requirements, OEI-04-07-00401, December 2009. The December 2009
                           report did not determine whether the required documents were sufficient to support the
                           medical necessity of the power wheelchairs or whether the power wheelchairs were
                           medically necessary because this review used a medical record review to address those
                           questions.



OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                10
 I   N T    R O   D   U   C T    I   O   N




                          benefit. 54 These problems include deficiencies in enrollment safeguards,
                          excessive payments, inappropriate payments, and issues with provider
                          appeals. For example, when OIG conducted unannounced site visits to
                          1,581 DME suppliers in South Florida in late 2006, nearly a third either
                          did not maintain physical facilities or were not open and staffed. OIG
                          has made a variety of recommendations to CMS to address these
                          vulnerabilities, including strengthening the supplier enrollment
                          process. CMS has implemented many of these recommended changes;
                          however, OIG continues to find significant vulnerabilities.
                          Based on joint investigations by the Department of Justice (DOJ), CMS,
                          and OIG, in recent years numerous DMEPOS suppliers have been
                          charged with and convicted of defrauding the Medicare program, and
                          many have had their Medicare billing privileges revoked based on OIG
                          work. Examples include the 20 DME company owners and marketers,
                          most of them in the Los Angeles area, who were charged in 2009 with
                          allegedly billing Medicare for more than $26 million in fraudulent
                          claims for power wheelchairs, orthotics, and hospital beds.55 Effective
                          January 1, 2007, CMS revoked the billing privileges of 491 South
                          Florida DME suppliers that did not maintain appropriate physical
                          facilities or had facilities that were not accessible to beneficiaries during
                          reasonable or posted business hours on at least two visits. 56


                          METHODOLOGY
                          Scope
                          This evaluation focused on standard and complex rehabilitation power
                          wheelchairs provided to Medicare beneficiaries during the first half of
                          2007. Our population consisted of claims for new, nonrental power
                          wheelchairs from CMS’s National Claims History DME Standard


                            54 For example, HHS OIG, South Florida Suppliers’ Compliance With Medicare
                          Standards: Results From Unannounced Visits, OEI-03-07-00150, March 2007; HHS OIG,
                          Los Angeles County Suppliers’ Compliance with Medicare Standards: Results From
                          Unannounced Visits, OEI-09-07-00550, February 2008; HHS OIG, South Florida Medical
                          Equipment Suppliers: Results of Appeals, OEI-03-07-00540, October 2008; HHS OIG,
                          Power Wheelchairs in the Medicare Program: Supplier Acquisition Costs and Services,
                          OEI-04-07-00400, August 2009.
                            55 DOJ, Office of Public Affairs, Los Angeles Medicare Fraud Strike Force Charges 20 in

                          Health Care Fraud Cases Involving Durable Medical Equipment. Accessed at
                          http://www.justice.gov/opa/pr/2009/October/09-crm-1131.html on February 23, 2011.
                            56 HHS OIG,   South Florida Medical Equipment Suppliers: Results of Appeals,
                          OEI-03-07-00540, October 2008.



OEI-04-09-00260           MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES              11
   I   N T    R O   D   U   C T         I   O   N



                            Analytical File with dates of service in the first half of 2007.57 We based
                            this evaluation on data from a medical record review of a random
                            sample of power wheelchair claims.
                            Based on suppliers’ records, we determined whether power wheelchairs
                            met clinical coverage criteria. We also reviewed the medical necessity of
                            power options and accessories supplied with complex rehabilitation
                            power wheelchairs. We did not review accessories supplied with
                            standard power wheelchairs because beneficiaries who received such
                            wheelchairs needed fewer, less expensive accessories. We did not
                            determine whether sampled power wheelchair claims were coded
                            correctly or met nonclinical documentation requirements; in separate
                            reports, OIG has noted the rates of miscoding and documentation error
                            in power wheelchair claims. 58 We also reviewed prescribing physicians’
                            records. However, we did not determine whether claims met clinical
                            coverage criteria based on physicians’ records.
                            Sample Selection
                            We removed from our population claims from suppliers or prescribing
                            physicians under OIG investigation and claims from suppliers that were
                            inactive or whose billing privileges had been revoked since the time they
                            submitted the claims.59, 60 We grouped the resulting population into
                            three strata:




                               57 We analyzed claims that CMS processed as of June 30, 2007. That claims file is
                            estimated to be 79 percent complete; that is, it included 79 percent of all claims for power
                            wheelchairs provided during the first half of 2007.
                               58
                                Miscoded Claims for Power Wheelchairs in the Medicare Program, loc. cit., and
                            Medicare Power Wheelchair Claims Frequently Did Not Meet Documentation Requirement,
                            loc. cit.
                               59 Pursuant to 42 CFR § 424.520(a), to maintain Medicare billing privileges after initial
                            enrollment, suppliers must comply with Medicare regulations and relevant Federal and
                            State requirements. Pursuant to 42 CFR § 424.535, Medicare may revoke a supplier’s
                            billing privileges because of a felony, noncompliance with enrollment requirements, etc.
                            Pursuant to 42 CFR § 424.540, Medicare also may deactivate a supplier’s billing privileges
                            when the supplier does not submit a claim for a full year or when the supplier fails to report
                            a change in the information provided on the enrollment application, such as a change in
                            practice location or ownership.
                               60 After we removed these claims—3,430 claims for standard power wheelchairs and
                            301 claims for complex rehabilitation power wheelchairs—our population consisted of
                            43,133 claims for standard power wheelchairs, or 93 percent of such claims; and
                            3,001 claims for complex rehabilitation power wheelchairs, or 91 percent of such claims.



OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                      12
I     N T     R O     D   U   C T     I   O   N



                                1. standard power wheelchair claims submitted by low-volume
                                   suppliers (i.e., those that submitted fewer than 10 standard power
                                   wheelchair claims in the first half of 2007), 61
                                2. standard power wheelchair claims submitted by high-volume
                                   suppliers (i.e., those that submitted 10 or more standard power
                                   wheelchair claims in the first half of 2007), and
                                3. complex rehabilitation power wheelchair claims.
                               We sampled 375 claims by selecting simple random samples of
                               125 claims from each stratum. 62 Appendix C provides the number of
                               claims, amount of Medicare expenditures, and number of suppliers for
                               the population and sample, by stratum.
                               We also identified power options and accessories supplied with complex
                               rehabilitation power wheelchairs in our sample. Claims for power
                               options and accessories (1) had HCPCS codes listed in Medicare’s LCD
                               for Wheelchair Options/Accessories and (2) shared the same unique
                               control number assigned by the DME MAC as a sampled claim for a
                               complex rehabilitation power wheelchair.
                               Data Collection
                               We requested beneficiary records from the supplier and prescribing
                               physician to support each sampled claim.
                               Supplier records. We obtained the supplier addresses from the
                               National Supplier Clearinghouse data file. To increase our response
                               rate, we sent an initial request and, as needed, sent at least two
                               followup letters and contacted the supplier by phone. We received or
                               classified as errors 364 of the 375 power wheelchair claims, a
                               97-percent response rate. We received supplier records for
                               363 claims. We classified the single remaining claim as an error
                               because the supplier received but did not respond to our third request
                               letter, which was sent via certified mail. In our analysis, we
                               considered this claim to be undocumented. We did not include the

                                    61 We divided the standard power wheelchair population by supplier volume based on the
                               distribution of suppliers and claims. For example, 25 percent of suppliers received
                               Medicare reimbursement for 10 or more standard power wheelchair claims during the first
                               half of 2007, and these claims accounted for 83 percent of all standard power wheelchair
                               claims. High-volume suppliers had an average of 50 standard power wheelchair claims,
                               while low-volume suppliers had an average of 3 such claims.
                                    62 All evaluations in the current series of OIG power wheelchair reports, described

                               earlier in the report, use this sample methodology.



    OEI-04-09-00260            MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                  13
 I   N T    R O   D   U   C T    I   O   N



                          remaining 11 claims in our analysis because we could not obtain
                          current addresses for the suppliers of 10 claims and the supplier’s
                          record for 1 claim was in another language.63
                          Prescribing physician records. We obtained the names and addresses of
                          physicians who prescribed the power wheelchairs in our sample from
                          suppliers. When suppliers did not provide this information, we obtained
                          it from either the Unique Physician Identification Number Directory or
                          the National Provider Identifier Directory. We requested from the
                          prescribing physician all documentation from the beneficiary’s medical
                          record, including office visit notes, referrals, and hospital admission
                          histories and discharge summaries, during the 12 months prior to the
                          date the beneficiary received the power wheelchair.
                          We used a medical review contractor to collect medical records from
                          prescribing physicians. The contractor sent a request and, as needed, at
                          least two followup letters and contacted the physician by phone to
                          increase the response rate. We received or classified as errors 360 of the
                          375 power wheelchair claims, a 96-percent response rate. We received
                          prescribing physician records for 322 claims. We classified the
                          remaining 38 claims as errors, either because the physician received but
                          did not respond to our third request letter (sent via certified mail) or
                          because the documentation that the physician produced did not contain
                          any information relevant to our sampled claim. In our analysis, we
                          considered these claims to be undocumented. We did not include the
                          remaining 15 claims in our analysis because we could not obtain current
                          addresses for the physicians.
                          Medical Record Review
                          We used a contractor to conduct a medical record review of the claims in
                          our sample and the power options and accessories supplied with the
                          complex rehabilitation power wheelchair claims in our sample. For
                          each claim, the supplier’s record and the prescribing physician’s record
                          were reviewed by a licensed clinician with experience in establishing
                          medical necessity for power wheelchairs. The reviewers completed a
                          standardized review instrument twice for each claim in the sample:
                          once based on a review of the supplier’s record and once based on a
                          review of the physician’s record.

                            63 We referred to CMS the suppliers that did not respond to our request or for which we
                          were unable to locate current addresses. In addition, OIG is considering these suppliers for
                          investigation.



OEI-04-09-00260           MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                 14
I     N T    R O      D   U   C T    I   O   N



                                The reviewers determined whether claims met Medicare coverage
                                criteria from the NCD for Mobility-Assistive Equipment and LCD for
                                Power Mobility Devices. They determined whether the power
                                wheelchairs were medically necessary and, if not, which other type of
                                mobility-assistive equipment (e.g., cane, manual wheelchair, or scooter)
                                or other power wheelchair corresponding to a different HCPCS code
                                would have been medically necessary, if any. The reviewers indicated
                                whether the supplier’s record was insufficient to determine whether the
                                power wheelchair was medically necessary. They also determined
                                whether power options and accessories provided with the complex
                                rehabilitation power wheelchairs were medically necessary and had
                                claims that were sufficiently documented.
                                Analysis
                                We aggregated data received from the medical review contractor and
                                determined the percentage of sampled claims that did not meet
                                Medicare coverage criteria based on the supplier’s record. 64 We
                                identified the percentages of claims for power wheelchairs that were
                                medically unnecessary, claims that were insufficiently documented to
                                determine the medical necessity of the power wheelchair, and claims
                                that were undocumented. We calculated these error rates for the entire
                                sample and for the following subgroups: standard power wheelchair
                                claims, complex rehabilitation power wheelchair claims, standard power
                                wheelchair claims submitted by low-volume suppliers, and standard
                                power wheelchair claims submitted by high-volume suppliers. See
                                Appendix D (Table D-1) for the point estimates and confidence intervals
                                for the projections of these error rates. We also determined whether
                                these error rates differed significantly between claims for standard
                                power wheelchairs and those for complex rehabilitation power
                                wheelchairs. See Appendix D (Table D-2) for the point estimates and
                                confidence intervals associated with these statistical comparisons.
                                We calculated the inappropriate payments for erroneous claims using
                                Medicare-allowed amounts from the National Claims History data. See
                                Appendix D (Table D-3) for the point estimates and confidence intervals
                                for inappropriate payment projections. We calculated partial
                                inappropriate payments for cases in which beneficiaries did not meet
                                the coverage criteria for the provided power wheelchair but would have


                                    64 As the provider submitting the claim, the supplier must have records to support that

                                the claim met coverage criteria. Therefore, error rates are based on suppliers’ records.



    OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                  15
I   N T   R O         D   U   C T    I     O   N




                                    qualified for a manual wheelchair, cane, or walker or for a different
                                    power wheelchair. We derived the adjusted allowances from the
                                    2007 DME fee schedule ceiling amounts.
                                    When the beneficiary would have qualified for a manual wheelchair, a
                                    cane, or a walker, we used the HCPCS codes E1161 for manual
                                    wheelchairs and E0147 for canes or walkers because these codes had
                                    the highest fee schedule amounts for those types of mobility-assistive
                                    equipment and thus yielded the most conservative figures for
                                    overpayments. When the beneficiary needed a different power
                                    wheelchair, we used the fee schedule amount for the appropriate power
                                    wheelchair (using the HCPCS code indicated by the medical record
                                    reviewer), calculating the loss to the Medicare program as the difference
                                    between the cost of the two power wheelchairs. (If the beneficiary
                                    needed a more expensive power wheelchair, we subtracted that
                                    difference from the amount of total inappropriate payments.) If the
                                    beneficiary needed a different type of power wheelchair but the reviewer
                                    could not determine which HCPCS code would have been appropriate,
                                    we did not consider any portion of the allowed amount to be
                                    inappropriate.
                                    We also identified the percentage of power options and accessories that
                                    were medically unnecessary or insufficiently documented to determine
                                    medical necessity. 65 Finally, we identified the percentage of claims for
                                    complex rehabilitation power wheelchairs for which at least one power
                                    option or accessory was medically unnecessary or insufficiently
                                    documented to determine medical necessity. 66 See Appendix D
                                    (Table D-4) for the point estimates and confidence intervals for the
                                    projections of these error rates.
                                    We determined whether the records from prescribing physicians
                                    supported claims that suppliers submitted. For claims for which the
                                    suppliers’ records indicated no errors, we determined whether the
                                    prescribing physicians’ records yielded the same determinations—that
                                    is, we identified claims that the prescribing physicians’ records
                                    indicated were for medically unnecessary power wheelchairs, had
                                    insufficient documentation, or were undocumented. We removed from


                                         65 This analysis is based on 556 claims for power options and accessories provided with

                                    sample complex rehabilitation power wheelchair claims.
                                         66 This analysis is based on the 108 claims for complex rehabilitation power wheelchairs

                                    supplied with at least one power option or accessory.



    OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                  16
I    N T     R O      D   U   C T    I   O   N




                                our analysis claims for which the only difference between the suppliers’
                                records and the physicians’ records was that the former contained a
                                home assessment report and the latter did not. 67 See Appendix D
                                (Table D-5) for the point estimates and confidence intervals for the
                                projections of these calculations.
                                Finally, we calculated the combined error rate across the three OIG
                                reports that had each calculated error rates based on the same sample
                                of power wheelchairs.68 We calculated the combined error rate based on
                                two sets of claims from the shared sample of 375 claims: (1) the
                                339 claims that were reviewed in all three reports and (2) the
                                365 claims that were reviewed in at least one of the three reports. See
                                Appendix D (Table D-6) for the point estimates and confidence intervals
                                for the projections of these error rates.
                                We projected the error rates, total inappropriate payments, and rates of
                                inconsistency between supplier and physician records to the populations
                                defined by the strata from which we selected sample claims. We used
                                SAS and SUDAAN survey data analysis software to project these
                                results. Appendix D includes the point estimates and confidence
                                intervals for all reported projections.
                                Limitations
                                Our results cannot be extrapolated beyond the timeframe of our
                                evaluation. We recognize that since the first half of 2007, CMS has
                                continued to educate suppliers and prescribing physicians about its
                                power wheelchair clinical coverage criteria and has implemented
                                additional program integrity safeguards. Additionally, all suppliers
                                were required to meet quality standards as of September 30, 2009.
                                Although CMS has taken steps since 2007 to decrease errors among
                                suppliers of power wheelchairs and other kinds of DME, Medicare has


                                    67 This analysis is based on 121 claims. There were 140 claims without errors in the
                                supplier record. From these, we removed 19 claims for which the only difference between
                                the suppliers’ records and the physicians’ records was that the former contained home
                                assessment reports and the latter did not. Discrepancies arising because of this difference
                                between records are acceptable; the supplier must have the home assessment report on file,
                                but the prescribing physician is not explicitly required to have this report. This analysis
                                includes only claims for which we either received the supplier record and the physician
                                record or did not receive a response from the supplier and considered the claim to be
                                undocumented.
                                    68 The three reports are this report and two others:
                                                                                      Miscoded Claims for Power
                                Wheelchairs in the Medicare Program, loc. cit.; and Medicare Power Wheelchair Claims
                                Frequently Did Not Meet Documentation Requirement, loc. cit.



    OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                  17
I N T R O D       U C T    I O N



                     paid significantly more for power wheelchairs in recent years than it did
                     in 2007.69
                     Standards
                     This study was conducted in accordance with the Quality Standards for
                     Inspection and Evaluation issued by the Council of the Inspectors
                     General on Integrity and Efficiency.




                       69 Medicare and its beneficiaries paid $658 million for power wheelchairs in 2007,
                     $779 million in 2008, and $723 million in 2009.



OEI-04-09-00260      MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES              18
     F I N D I N G S



                                                           Based on records submitted by
          Sixty-one percent of power wheelchairs           suppliers that provided power
   provided to Medicare beneficiaries in the first         wheelchairs, 9 percent of claims
 half of 2007 were medically unnecessary or had            were for power wheelchairs that
  claims that lacked sufficient documentation to           were medically unnecessary and
                     determine medical necessity           another 52 percent had insufficient
                                                           documentation to determine
                                                           whether the power wheelchairs
                      were medically necessary. 70 Because of these errors, these claims
                      should not have been paid. However, Medicare and its beneficiaries
                      paid $95 million for power wheelchairs provided in the first half of 2007
                      that were medically unnecessary, had claims with insufficient
                      documentation, or had claims that were undocumented, out of
                      $189 million allowed by Medicare. Table 1 presents the percentage of
                      claims that had each type of error and the associated Medicare
                      payments.

                       Table 1: Error Rates for Medicare Power Wheelchairs, First Half of 2007
                       Type of Error                                                       Claim Error             Inappropriate
                                                                                                 Rate                 Payments

                       Power Wheelchair Was Medically Unnecessary *                      9%                              $2 million
                         Beneficiary needed a less expensive type of                                   2%
                         equipment (i.e., not a power wheelchair)
                         Beneficiary needed a different type of power                                  7%
                         wheelchair
                       Claim Had Insufficient Documentation                              52%                           $93 million

                       Claim Was Undocumented *                                          <1%                           <$1 million
                           Total Errors                                                  61%                          $95 million
                       * We are unable to reliably project the weighted point estimates for inappropriate payments associated with
                       these error rates because of the small number of sample claims in these categories. We did not include the
                       95-percent confidence intervals for these estimates in Appendix D.

                       Source: OIG medical record review of Medicare power wheelchair claims.

                      Two previous OIG reports based on the same sample of claims for power
                      wheelchairs found problems with coding and documentation




                         70 Additionally, less than 1 percent of claims for power wheelchairs were

                      “undocumented”—that is, the supplier did not submit any medical records to document the
                      claims. Claims that lack documentation to show that the care was reasonable and
                      necessary do not meet Medicare coverage criteria.



OEI-04-09-00260       MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                                19
F   I   N   D I   N G   S



                            requirements. 71 Across all three reports, 80 percent of claims for power
                            wheelchairs supplied to Medicare beneficiaries in the first half of
                            2007 did not meet Medicare requirements. 72 In the current report, we
                            found that 61 percent of claims were for wheelchairs that were
                            medically unnecessary or had insufficient documentation to determine
                            medical necessity. In the two previous reports, OIG found that
                            8 percent of claims were miscoded and 60 percent did not meet
                            documentation requirements; many claims had more than one of these
                            error types.
                            Nine percent of power wheelchairs were medically unnecessary
                            Claims for 9 percent of power wheelchairs provided to Medicare
                            beneficiaries in the first half of 2007 were for power wheelchairs that
                            were medically unnecessary. Beneficiaries who received power
                            wheelchairs that were medically unnecessary needed a less expensive
                            type of medical equipment or a different type of power wheelchair. For
                            2 percent of power wheelchair claims, a less expensive type of
                            equipment (e.g., a manual wheelchair, cane, or walker) would have been
                            more appropriate. For another 7 percent of claims, the beneficiaries
                            should have received a different type of power wheelchair than was
                            provided. The beneficiaries should have received a less expensive power
                            wheelchair for 1 percent of all claims. For another 3 percent of claims,
                            the beneficiaries needed a more expensive power wheelchair. 73
                            Regardless of whether a more expensive or less expensive power
                            wheelchair was needed, Medicare paid for the wrong equipment to meet
                            these beneficiaries’ needs. These claims did not meet Medicare clinical
                            coverage criteria as stated in the NCD and LCD. Examples of these
                            types of inappropriate power wheelchairs from our sample are:
                            • Claim A: The beneficiary received a complex rehabilitation power
                              wheelchair for which Medicare allowed $5,081. This type of power
                              wheelchair is necessary for beneficiaries with a neurological,

                              71Miscoded Claims for Power Wheelchairs in the Medicare Program, loc. cit., and
                            Medicare Power Wheelchair Claims Frequently Did Not Meet Documentation Requirement,
                            loc. cit.
                               72 Based on sample claims that were reviewed in all three reports. We also calculated

                            the combined error rate using claims that were reviewed in at least one of the three reports.
                            These claims yielded a combined error rate of 79 percent.
                               73 For the remaining 3 percent of claims for which the beneficiary should have received a
                            different power wheelchair, the reviewer could not determine the specific power wheelchair
                            that the beneficiary needed. Therefore, we did not consider any portion of the
                            Medicare-allowed amount to be inappropriate.



OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                 20
F   I   N   D I   N G   S




                              muscular, or skeletal deformity. However, the beneficiary had a
                              diagnosis of chronic obstructive pulmonary disease and cardiac
                              disease. Therefore, the beneficiary should have received a standard
                              power wheelchair for which Medicare would have allowed up to
                              $4,024. In this situation, Medicare overpaid by $1,057.
                            • Claim B: The beneficiary received a complex rehabilitation power
                              wheelchair with a weight capacity of 301–450 pounds, for which
                              Medicare allowed $6,130. However, the beneficiary weighed
                              85 pounds. Therefore, he should have received a complex
                              rehabilitation power wheelchair with a weight capacity of less than
                              300 pounds for which Medicare would have allowed up to $5,672. In
                              this situation, Medicare overpaid by $458.
                            • Claim C: The beneficiary received a complex rehabilitation power
                              wheelchair with an automotive-style seat for which Medicare
                              allowed $4,208. However, she had a neurological diagnosis that
                              results in poor sitting balance and a high risk of skin breakdown.
                              Therefore, she needed a power wheelchair with a rehabilitation seat
                              providing better postural support and skin protection. For such a
                              wheelchair, Medicare would have allowed up to $5,672. In this
                              situation, Medicare underpaid by $1,464.
                            Fifty-two percent of claims for power wheelchairs had insufficient
                            documentation to determine medical necessity
                            Claims for 52 percent of power wheelchairs provided during the first
                            half of 2007 were insufficiently documented. That is, suppliers’ records
                            were insufficient to enable reviewers to determine whether these power
                            wheelchairs were medically necessary. Inappropriate payments for
                            these claims totaled $93 million.
                            Suppliers are required to maintain documentation that supports the
                            appropriateness of claims they submit for Medicare reimbursement.
                            These claims did not contain sufficient documentation to show that they
                            met Medicare clinical coverage criteria as stated in the NCD and LCD.
                            Examples of sampled claims that did not have sufficient documentation
                            are:
                            • Claim D: The record did not provide sufficient information about the
                              beneficiary’s ability to participate in mobility-related activities of daily
                              living, ability to use the power wheelchair in her home, or ability to
                              use the power wheelchair safely. Additionally, the documentation did




OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   21
F   I   N   D I   N G   S



                              not rule out other, less expensive types of mobility-assistive
                              equipment.
                            • Claim E: The record did not explain why the beneficiary needed a
                              power wheelchair. The report of the face-to-face examination by the
                              prescribing physician documented a diagnosis of osteoporotic hip
                              fracture, which is usually reversible following the surgery that the
                              beneficiary received. However, the report did not explain how the
                              beneficiary’s condition had changed to require a power wheelchair.
                              That is, it did not contain sufficient documentation to show that the
                              claims met Medicare clinical coverage criteria.


                                                                  Claims for standard and complex
            Medical necessity and documentation errors            rehabilitation power wheelchairs
                       varied by power wheelchair type            had similar overall error rates.
                                                                  However, standard power
                                                                  wheelchairs were less likely to be
                            medically unnecessary than complex rehabilitation power wheelchairs.
                            Conversely, claims for standard power wheelchairs were more likely to
                            have insufficient documentation than were claims for complex
                            rehabilitation power wheelchairs. 74 Because standard power
                            wheelchairs accounted for most of Medicare’s power wheelchair
                            expenditures, errors among claims for standard power wheelchairs
                            resulted in higher inappropriate payments than did errors among
                            claims for complex rehabilitation power wheelchairs. 75




                               74 The differences in error rates between the two power wheelchair types are statistically
                            significant at the 95-percent confidence level.
                              75 Standard power wheelchairs accounted for 73 percent of Medicare’s power wheelchair
                            expenditures in the first half of 2007 and 92 percent of the population we reviewed, which
                            did not include power wheelchairs reimbursed under HCPCS codes K0813–K0817,
                            K0820–K0822, and K0824–K0831.



    OEI-04-09-00260         MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                 22
            F    I   N   D I      N G    S




                                                Figure 1 illustrates the differences between the percentage of error
                                                rates for claims for standard and complex rehabilitation power
                                                wheelchairs.


                         Figure 1:
    Percentage of Error Rates
  for Claims for Standard and
Complex Rehabilitation Power
Wheelchairs, First Half of 2007




                                                             Total errors: 61%                                                     Total errors: 56%

                                        Notes: In addition to claims for power wheelchairs that were medically unnecessary and claims that had insufficient
                                        documentation, less than 1 percent of claims for standard power wheelchairs were undocumented. No claims for complex
                                        rehabilitation power wheelchairs were undocumented. Error rates for claims for complex rehabilitation power wheelchairs
                                        do not sum to 57 percent because of rounding.

                                        Source: OIG medical record review of Medicare claims for power wheelchairs, 2010.

                                                Standard power wheelchairs. In the first half of 2007, 61 percent of
                                                Medicare standard power wheelchairs were medically unnecessary or
                                                had claims that were insufficiently documented. Eight percent were
                                                medically unnecessary, and another 53 percent had claims with
                                                insufficient documentation to determine medical necessity. In total,
                                                these errors for claims for standard power wheelchairs resulted in
                                                $90 million in inappropriate payments.
                                                Beneficiaries who received medically unnecessary standard power
                                                wheelchairs needed either a different and less expensive type of
                                                equipment or a more expensive power wheelchair, such as a complex
                                                rehabilitation power wheelchair. For 2 percent of claims for standard
                                                power wheelchairs, a less expensive manual wheelchair, cane, or walker
                                                should have been provided. For another 3 percent of claims,
                                                beneficiaries should have received power wheelchairs that were more
                                                expensive than the ones provided.76

                                                   76 For another 3 percent of claims, beneficiaries should have received a different power

                                                wheelchair, but the reviewer could not determine which specific power wheelchair
                                                beneficiaries needed.



                OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                                23
F   I   N   D I   N G   S



                            The difference in error rates between standard power wheelchairs
                            supplied by low- and high-volume suppliers was not statistically
                            significant. Sixty-six percent of standard power wheelchairs provided
                            by low-volume suppliers were medically unnecessary or had claims that
                            were insufficiently documented, and 60 percent of those provided by
                            high-volume suppliers were medically unnecessary or had claims that
                            were insufficiently documented.
                            Complex rehabilitation power wheelchairs. In the first half of 2007,
                            56 percent of Medicare complex rehabilitation power wheelchairs were
                            medically unnecessary or had claims that were insufficiently
                            documented. Twenty-four percent of complex rehabilitation power
                            wheelchairs were medically unnecessary, and another 32 percent had
                            claims with insufficient documentation to determine medical necessity.
                            In total, these errors for claims for complex rehabilitation power
                            wheelchairs resulted in $5 million in inappropriate payments.
                            Beneficiaries who received medically unnecessary complex
                            rehabilitation power wheelchairs needed a different and less expensive
                            type of equipment, a less expensive power wheelchair, or a more
                            expensive power wheelchair. For 1 percent of complex rehabilitation
                            power wheelchair claims, a less expensive manual wheelchair should
                            have been provided. For 13 percent of claims, beneficiaries should have
                            received a less expensive power wheelchair than was provided, and for
                            another 6 percent of claims, beneficiaries needed a more expensive
                            power wheelchair.77
                            Complex rehabilitation power wheelchair options and accessories.
                            Nineteen percent of power options and accessories supplied with
                            complex rehabilitation power wheelchairs were medically unnecessary
                            or insufficiently documented. Four percent of the power options and
                            accessories were medically unnecessary, and for another 16 percent of
                            claims, beneficiaries’ medical records had insufficient documentation to
                            determine whether the power options or accessories were medically
                            necessary. 78 Fourteen percent of complex rehabilitation power
                            wheelchairs were supplied with at least one medically unnecessary

                              77 For another 5 percent of claims, beneficiaries should have received a different power
                            wheelchair, but the reviewer could not determine which specific power wheelchair
                            beneficiaries needed. The types of claims for medically unnecessary complex rehabilitation
                            power wheelchairs do not sum to 24 percent because of rounding.
                              78 The medical necessity and insufficient documentation error rates do not sum to

                            19 percent because of rounding.



    OEI-04-09-00260         MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES               24
F   I     N   D I    N G     S




                                  power option or accessory. 79 Medically unnecessary power options and
                                  accessories resulted in $2 million in inappropriate payments in the first
                                  half of 2007, separate from the inappropriate payments for power
                                  wheelchairs.



                          Prescribing physicians’ records do not           Thirty-nine percent of power
                                                                           wheelchair claims had no errors
                          support the medical necessity of most
                                                                           based on suppliers’ records.
                                              power wheelchairs
                                                                           However, 78 percent of such
                                                                           claims were not supported by
                                  medical records kept by physicians who prescribed the power
                                  wheelchairs. Physicians’ records contradicted suppliers’ records for
                                  7 percent of claims with no errors based on suppliers’ records. These
                                  power wheelchairs were medically unnecessary based on physicians’
                                  records. For another 71 percent of claims with no errors based on
                                  suppliers’ records, physicians’ records were insufficiently documented to
                                  determine medical necessity or the claims were undocumented. Table 2
                                  presents the types of errors in physicians’ records for claims with no
                                  errors based on suppliers’ records.




                                    79 This analysis is based only on the 108 complex rehabilitation power wheelchairs

                                  supplied with at least 1 power option or accessory out of the 124 in the sample.



        OEI-04-09-00260           MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES              25
F    I   N   D I      N G   S




                                Table 2: Claims With Errors Based on Prescribing Physicians’
                                Records and No Errors Based on Suppliers’ Records, First Half of
                                2007

                                                                                                               Claims Error
                                Type of Error in Physician’s Record                                                   Rate
                                Power Wheelchair Was Medically Unnecessary                                             7%
                                Claim Had Insufficient Documentation To Determine Medical
                                Necessity                                                                             62%
                                Claim Was Undocumented                                                                 9%
                                Total Claims                                                                          78%
                                Source: OIG medical record review of Medicare power wheelchair claims, 2010.




                                Physicians’ records sometimes contradicted suppliers’ records
                                Seven percent of power wheelchair claims that were medically
                                necessary based on suppliers’ records were medically unnecessary based
                                on prescribing physicians’ records. In these cases, prescribing
                                physicians’ records indicated that beneficiaries needed different power
                                wheelchairs or did not need power wheelchairs at all. Examples of each
                                of these types of claims from our sample are:
                                • Claim F: The beneficiary’s weight is recorded as 230 pounds in the
                                  supplier’s record and as more than 350 pounds in the physician’s
                                  record. The physician’s record also documents lower extremity edema
                                  and wounds. The supplier’s record does not note these impairments.
                                  The beneficiary received a standard power wheelchair, but based on
                                  the physician’s record, the patient needed a complex rehabilitation
                                  power wheelchair. A complex rehabilitation power wheelchair would
                                  have had a greater weight capacity and would have allowed for the
                                  addition of power options, such as elevating legrests and a power tilt
                                  seating system, to manage the lower extremity edema and allow
                                  wound healing and pressure relief.
                                • Claim G: In the supplier’s record, a letter from the physician states
                                  that the beneficiary was recovering from a total replacement of the left
                                  knee. The letter also states that the beneficiary has severe
                                  osteoarthritis, a history of brain surgery, and poor balance. Finally,
                                  the letter states that the beneficiary is obese, unable to walk safely
                                  with a cane or walker, and unable to propel a manual wheelchair
                                  because of severe joint pain. There is no documentation of a power
                                  wheelchair in the physician’s record. An entry from the physician’s


    OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                     26
F   I   N   D I    N G    S




                                 record from 1 week after the date of the letter in the supplier’s record
                                 states that the beneficiary had recovered from the knee replacement
                                 enough to bear her full weight and discontinue using a cane. The
                                 beneficiary received a standard power wheelchair, but based on the
                                 physician’s record, she needed a cane or walker.
                               Physicians’ records often insufficiently documented the beneficiaries’ need
                               for power wheelchairs
                               Sixty-two percent of power wheelchair claims that were medically
                               necessary based on the suppliers’ records were insufficiently
                               documented in the physicians’ records. That is, the medical records
                               from the prescribing physicians were insufficient to support the medical
                               necessity of these power wheelchairs. For another 9 percent of claims
                               that were medically necessary based on the suppliers’ records,
                               physicians did not provide supporting medical records (i.e., the claims
                               were undocumented).
                               A physician is required to assess a beneficiary’s mobility needs before
                               prescribing a power wheelchair. The report from the physician’s
                               face-to-face examination, along with other documentation in the
                               physician’s record, must support the medical necessity for the power
                               wheelchair. Examples of claims that were insufficiently documented in
                               the physicians’ records are:
                              • Claim H: There is no documentation in the physician’s record from
                                the entire year in which the beneficiary received a power wheelchair.
                                However, physician documentation in the supplier’s record documents
                                a mobility limitation and a risk of falls. It also documents
                                significantly decreased strength in bilateral upper and lower
                                extremities.
                              • Claim I: Portions of the physician’s record were inconsistent
                                regarding the beneficiary’s history of seizures. Therefore, it is unclear
                                from the physician’s record whether the beneficiary had the mental
                                and physical capabilities to safely operate the power wheelchair that
                                was provided, a Medicare coverage requirement. In the supplier’s
                                record, a note from a physical therapist documented that the
                                beneficiary had not had a seizure in a long time.




        OEI-04-09-00260        MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   27
       R E C O M M E N D A T I O N S


                  A power wheelchair can greatly improve the quality of life for an
                  individual with limited mobility. However, our review found that power
                  wheelchairs paid for by Medicare are not always medically necessary,
                  and claims for power wheelchairs frequently have insufficient
                  documentation to support medical necessity. In the first half of 2007,
                  Medicare paid $95 million for power wheelchair claims with these
                  errors. Although CMS has taken steps since 2007 to decrease errors
                  among suppliers of power wheelchairs and other kinds of DME,
                  Medicare has paid significantly more in recent years for power
                  wheelchairs than it did in 2007. Medicare and its beneficiaries paid
                  $658 million in 2007, compared to $779 million in 2008 and $723 million
                  in 2009. These increases may indicate that CMS continues to pay for
                  power wheelchairs that are not medically necessary and/or have claims
                  that do not meet documentation requirements.

                  Additionally, we found that power wheelchairs that were medically
                  necessary according to suppliers’ records were often not medically
                  necessary according to the records of physicians who prescribed the
                  power wheelchairs, a further indication of potential fraud, waste, and
                  abuse. In most cases, physicians’ records had insufficient
                  documentation to support the medical necessity of power wheelchairs
                  and, less often, physicians’ records contradicted suppliers’ records.

                  Two previous OIG reports based on the same sample of power
                  wheelchairs found problems with suppliers’ compliance with Medicare
                  requirements, and this report also shows such problems. Across all
                  three reports, 80 percent of claims for power wheelchairs supplied to
                  beneficiaries in the first half of 2007 did not meet Medicare
                  requirements. In addition to finding in this report that 61 percent of
                  claims were for power wheelchairs that were medically unnecessary or
                  had insufficient documentation to determine medical necessity, OIG
                  found in previous reports that 8 percent of claims were miscoded and
                  60 percent did not meet documentation requirements. Many claims had
                  more than one of these error types.

                  Further, in recent years OIG has issued multiple reports identifying
                  substantial vulnerabilities in the Medicare DMEPOS benefit, including
                  deficiencies in enrollment safeguards, excessive payments,
                  inappropriate payments, and issues with provider appeals. OIG has
                  made a variety of recommendations to CMS to address these
                  vulnerabilities. Finally, numerous DMEPOS suppliers have been
                  convicted of Medicare fraud.


OEI-04-09-00260   MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   28
  R   E C     O   M   M   E       N D   A T    I   O   N   S



                              Based on the findings of this report and prior work, we recommend that
                              CMS:
                              Enhance reenrollment screening standards for current DMEPOS suppliers
                              Federal regulations categorize provider types into three levels of risk of
                              fraud, waste, and abuse: limited, moderate, and high. New DMEPOS
                              suppliers are placed at a risk level of “high,” whereas currently enrolled
                              DMEPOS suppliers are placed at a risk level of “moderate.” Based on
                              the overall error rate of 80 percent among power wheelchair claims, we
                              believe that currently enrolled DMEPOS suppliers should be subject to
                              the same enrollment screening standards as newly enrolling DMEPOS
                              suppliers and should also be placed at the risk level of “high.”
                              Review records from sources in addition to the supplier, such as the
                              prescribing physician, to determine whether power wheelchairs are
                              medically necessary
                              In some cases in which the physicians’ records did not support the
                              suppliers’ claims, the physicians’ records may not include the same level
                              of detail in the suppliers’ records. Alternatively, the differences may
                              exist because the suppliers’ records contained inaccurate information
                              that was included to justify the medical necessity of a power wheelchair.
                              Medicare contractors are not required to review the prescribing
                              physician’s records, although in 2007 the CERT contractor began asking
                              physicians for supporting information in response to OIG’s
                              recommendation. We continue to recommend that CMS direct its
                              contractors to review records from prescribing physicians as well as
                              those of suppliers.
                              Continue to educate power wheelchair suppliers and prescribing physicians
                              to ensure compliance with clinical coverage criteria
                              In 2009, CMS began requiring that DME suppliers meet quality
                              standards to be accredited. Additionally, since the first half of 2007,
                              CMS contractors have developed a variety of educational materials for
                              power wheelchair suppliers and prescribing physicians. Our review
                              highlights the importance of these efforts and the need for CMS to
                              continue to educate, and promote collaboration between, suppliers and
                              physicians. We suggest that CMS focus its educational efforts for
                              suppliers and prescribing physicians on the following topics:
                              •    Requirements for determining and documenting the medical necessity
                                   of a power wheelchair. We found that 9 percent of power wheelchairs
                                   were medically unnecessary and an additional 52 percent had claims
                                   with insufficient documentation for reviewers to determine medical

OEI-04-09-00260               MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   29
R   E C     O     M   M   E   N D     A T   I   O   N   S




                                    necessity. Suppliers’ records must show that the power wheelchairs
                                    they provided were medically necessary and met beneficiaries’
                                    mobility needs. We suggest that CMS focus on suppliers of standard
                                    power wheelchairs because we found that claims for such
                                    wheelchairs were more likely to have insufficient documentation
                                    than those for complex rehabilitation power wheelchairs.
                              •     Collaboration between supplier and physician necessary to determine
                                    the most appropriate power wheelchair for a beneficiary. Collaboration
                                    ensures that beneficiaries receive medically necessary power
                                    wheelchairs that are appropriate for their mobility needs.
                                    Additionally, we found that the 78 percent of claims for power
                                    wheelchairs that were medically necessary according to suppliers’
                                    records were not supported by the records of the physicians who
                                    prescribed them. Collaboration between the physician and the
                                    supplier should also result in a consistent clinical assessment of the
                                    beneficiary and consistent supporting records.
                              •     Requirements for determining the most appropriate power wheelchair
                                    for a beneficiary. We found that 7 percent of beneficiaries who
                                    received power wheelchairs needed a different type than was
                                    provided. Medicare covers hundreds of power wheelchair models
                                    that are reimbursed under 42 different HCPCS codes. These power
                                    wheelchairs vary widely in their ability to fulfill a beneficiary’s
                                    mobility needs. The wrong power wheelchair not only may fail to
                                    address a beneficiary’s mobility deficits but, in some cases, may
                                    harm the beneficiary. We suggest that CMS focus on suppliers of
                                    complex rehabilitation power wheelchairs because we found that
                                    such wheelchairs were more likely to be medically unnecessary than
                                    standard power wheelchairs and that the beneficiaries often needed
                                    a different type of power wheelchair.
                              Review suppliers of sampled claims we found to be in error
                              In a separate transmittal, we forwarded to CMS information—including
                              the suppliers’ identifying information—about the 61 percent of claims
                              that were for medically unnecessary power wheelchairs, were
                              insufficiently documented to determine medical necessity, or were
                              undocumented. We also provided CMS with information on the claims
                              for which physicians’ records contradicted suppliers’ records, so that
                              CMS may follow up appropriately. Finally, we will inform CMS of
                              physicians for whom we could not obtain current addresses. (We have



OEI-04-09-00260               MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   30
R   E C     O     M   M   E   N D   A T     I   O   N   S



                              informed CMS of suppliers for whom we could not obtain current
                              addresses.)



                              AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                              RESPONSE
                              CMS concurred with the second, third, and fourth recommendations.
                              CMS did not concur with the first recommendation. In response to the
                              first recommendation, CMS stated that it has in place other tools that
                              allow for increased scrutiny of some current DMEPOS suppliers. CMS
                              also noted that several triggering events can elevate individual
                              suppliers from the “moderate” to the “high” risk level. Based on this
                              report’s findings, which reinforce the findings of multiple OIG reports in
                              recent years identifying substantial vulnerabilities in the Medicare
                              DMEPOS benefit, we maintain that all current DMEPOS suppliers
                              should be subject to the screening standards of the “high” risk level
                              upon reenrollment.
                              In response to the second recommendation, CMS stated that it will
                              continue to emphasize the need for proper documentation from the
                              prescribing physician. We support this initiative and believe that CMS
                              contractors should consider collecting records directly from the
                              physician in addition to the records that they collect from the supplier.
                              In response to the third recommendation, CMS stated that it is
                              committed to continuing education of providers and suppliers about
                              Medicare clinical coverage criteria for power wheelchairs. Not only
                              have CMS’s contractors provided education, but also CMS conducted an
                              educational outreach call and published educational materials in 2010.
                              In response to the fourth recommendation, CMS stated that it will share
                              OIG-provided information with Recovery Auditors and MACs for
                              appropriate followup. For the full text of CMS’s comments, see
                              Appendix E.




OEI-04-09-00260               MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   31
     A R P E PC EO NM DM I E X N ~ D AA T I O N S



                          Clinical Coverage Criteria for Selected Power Wheelchairs

                          This appendix is adapted from the National Coverage Determination
                          (NCD) for Mobility-Assistive Equipment and the Local Coverage
                          Determination (LCD) for Power Mobility Devices. Information from the
                          NCD has been incorporated in the LCDs, and we have included only the
                          sections that are relevant to our evaluation. Full copies of these policies
                          from all durable medical equipment regions can be found by searching
                          the CMS Web site at
                          http://www.cms.gov/mcd/search.asp?clickon=search.
                          Basic Coverage Criteria
                          All of the following basic criteria (A–C) must be met for a power
                          mobility device (Healthcare Common Procedure Coding System
                          (HCPCS) codes K0800–K0898) to be covered. 80 Additional coverage
                          criteria for specific devices are listed below.
                          A) The patient has a mobility limitation that significantly impairs
                          his/her ability to participate in one or more mobility-related activities of
                          daily living (MRADLs), such as using the toilet, feeding, dressing,
                          grooming, and bathing in customary locations in the home. A mobility
                          limitation is one that:
                          • prevents the patient from accomplishing a MRADL entirely; or
                          • places the patient at reasonably determined heightened risk of
                            morbidity or mortality secondary to the attempts to perform a
                            MRADL; or
                          • prevents the patient from completing a MRADL within a reasonable
                            timeframe.
                          B) The patient’s mobility limitation cannot be sufficiently and safely
                          resolved by the use of an appropriately fitted cane or walker.
                          C) The patient does not have sufficient upper extremity function to
                          self-propel an optimally configured manual wheelchair in the home to
                          perform MRADLs during a typical day.
                          • Limitations of strength, endurance, range of motion, or coordination;
                            presence of pain or deformity; and absence of one or both upper
                            extremities are relevant to the assessment of upper extremity
                            function.


                            80 CMS does not cover HCPCS codes K0865–K0898.




    OEI-04-09-00260       MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   32
  A   P P     E   N   D I   X       A



                            • An optimally configured manual wheelchair is one with an
                              appropriate wheelbase, device weight, seating options, and other
                              appropriate nonpowered accessories.
                            Power Wheelchairs (HCPCS codes K0813–K0898)
                            A power wheelchair is covered if:
                            a. All of the basic coverage criteria (A–C) are met;
                            b. The patient does not meet coverage criteria for a power-operated
                            vehicle;
                            c. Either criterion J or K[ 81] (see below) is met;
                            d. Criteria L, M, N, and O (see below) are met; and
                            e. Any coverage criteria pertaining to the specific wheelchair type (see
                            below) are met.
                            J) The patient has the mental and physical capabilities to safely
                            operate the power wheelchair that is provided; or
                            K) If the patient is unable to safely operate the power wheelchair, the
                            patient has a caregiver who is unable to adequately propel an optimally
                            configured manual wheelchair, but is available, willing, and able to
                            safely operate the power wheelchair that is provided; and
                            L) The patient’s weight is less than or equal to the weight capacity of
                            the power wheelchair that is provided.
                            M) The patient’s home provides adequate access between rooms,
                            maneuvering space, and surfaces for the operation of the power
                            wheelchair that is provided.
                            N) Use of a power wheelchair will significantly improve the patient’s
                            ability to participate in MRADLs, and the patient will use it in the
                            home. For patients with severe cognitive and/or physical impairments,
                            participation in MRADLs may require the assistance of a caregiver.
                            O) The patient has not expressed an unwillingness to use a power
                            wheelchair in the home.




                                81 Criteria D–I apply to a different type of power mobility device.




OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   33
A   P P    E      N   D I   X      A




                                Standard Power Wheelchairs
                                Medicare covers standard power wheelchairs (HCPCS code K0823) if all
                                of the power wheelchair coverage criteria are met and the beneficiary
                                weighs less than 301 pounds.
                                Complex Rehabilitation Power Wheelchairs
                                Group 2 single power option (HCPCS codes K0835–K0840).[ 82] Medicare
                                covers such wheelchairs if all of the power wheelchair coverage criteria
                                are met and if criterion 1 or 2 is met and criterion 3 is met.
                                1. The beneficiary requires a drive control interface other than a hand-
                                   or chin-operated standard proportional joystick (examples include
                                   but are not limited to head control, sip and puff, switch control).
                                2. The beneficiary meets coverage criteria for a power tilt or a power
                                   recline seating system (see Appendix B), and the system is being
                                   used on the wheelchair.
                                3. The beneficiary has had a specialty evaluation performed by a
                                   licensed/certified medical professional, such as a physical therapist
                                   (PT) or occupational therapist (OT), or physician who has specific
                                   training and experience in rehabilitation wheelchair evaluations,
                                   and this specialty evaluation documents the medical necessity for
                                   the wheelchair and its special features. The PT, OT, or physician
                                   may have no financial relationship with the supplier.
                                Group 2 multiple power option (HCPCS codes K0841–K0843). Medicare
                                covers such wheelchairs if all of the power wheelchair coverage criteria
                                are met and if criterion 1 or 2 is met and criterion 3 is met.
                                1. The beneficiary meets coverage criteria for a power tilt and recline
                                   seating system (see Appendix B), and the system is being used on the
                                   wheelchair.
                                2. The beneficiary uses a ventilator mounted on the wheelchair.
                                3. The beneficiary has had a specialty evaluation performed by a
                                   licensed/certified medical professional, such as a PT or OT, or a
                                   physician who has specific training and experience in rehabilitation
                                   wheelchair evaluations, and this specialty evaluation documents the
                                   medical necessity for the wheelchair and its special features. The



                                  82 Group 1 power wheelchairs (HCPCS codes K0813–K0816) are not included in this

                                review.



OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES           34
 A   P P     E    N   D I   X        A



                                    PT, OT, or physician may have no financial relationship with the
                                    supplier.
                                Group 3 with no power options (HCPCS codes K0848–K0855). Medicare
                                covers such wheelchairs if all of the power wheelchair coverage criteria
                                are met; the beneficiary’s mobility limitation is due to a neurological
                                condition, myopathy, or congenital skeletal deformity; and the
                                beneficiary has had a specialty evaluation performed by a
                                licensed/certified medical professional, such as a PT or OT, or a
                                physician who has specific training and experience in rehabilitation
                                wheelchair evaluations, and this specialty evaluation documents the
                                medical necessity for the wheelchair and its special features. The PT,
                                OT, or physician may have no financial relationship with the supplier.
                                Group 3 with single power option (HCPCS codes K0856–K0860) or with
                                multiple power options (HCPCS codes K0861–K0864). Medicare covers
                                such wheelchairs if all of the power wheelchair coverage criteria are
                                met; the beneficiary’s mobility limitation is due to a neurological
                                condition, myopathy, or congenital skeletal deformity; and the Group 2
                                single power option or multiple power options are met.




OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   35
     A P P E N D I X ~ B



                      Clinical Coverage Criteria for Selected Power Wheelchair Power
                      Options and Accessories

                      This appendix is adapted from the Local Coverage Determination (LCD)
                      for Wheelchair Options/Accessories. Full copies of this policy from all
                      durable medical equipment regions can be found by searching the CMS
                      Web site at http://www.cms.gov/mcd/search.asp?clickon=search.
                      Arm of Chair
                      Adjustable arm height option (E0973, K0017, K0018, K0020) is covered
                      if the beneficiary requires an arm height that is different from that
                      available using nonadjustable arms and the beneficiary spends at least
                      2 hours per day in the wheelchair.
                      An arm trough (E2209) is covered if the beneficiary has quadriplegia,
                      hemiplegia, or uncontrolled arm movements.
                      Footrest/Legrest
                      Elevating legrests (E0990, K0046, K0047, K0053, K0195) are covered if:
                      1. the beneficiary has a musculoskeletal condition or a cast or brace
                         that prevents 90-degree flexion at the knee; or
                      2. the beneficiary has significant edema of the lower extremities that
                         requires having an elevating legrest; or
                      3. the beneficiary meets the criteria for and has a reclining back on the
                         wheelchair.
                      Nonstandard Seat Frame Dimensions
                      A nonstandard seat width and/or depth for a manual wheelchair
                      (E2201–E2204) is covered only if the beneficiary’s dimensions justify the
                      need.
                      Batteries/Chargers
                      Up to two batteries (E2361, E2363, E2365, E2371, K0731, K0733) at
                      any one time are allowed if required for a power wheelchair.
                      A nonsealed battery (E2360, E2362, E2364, E2372) will be denied as not
                      medically necessary.
                      A dual-mode battery charger (E2367) is not medically necessary; when
                      it is provided as a replacement, payment is based on the allowance for
                      the least costly medically appropriate alternative, E2366.




    OEI-04-09-00260   MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   36
  A   P P     E   N   D I   X     B




                            Power Tilt and/or Recline Seating Systems (E1002–E1010):
                            A power seating system—tilt only, recline only, or combination tilt and
                            recline—with or without power elevating legrests will be covered if
                            criteria 1 and 2 are met and if criterion 3, 4, or 5 is met:
                            1. the beneficiary meets all the coverage criteria for a power wheelchair
                               described in the LCD for Power Mobility Devices; and
                            2. a specialty evaluation performed by a licensed/certified medical
                               professional, such as a PT or OT or physician who has specific
                               training and experience in rehabilitation wheelchair evaluations of
                               the beneficiary’s seating and positioning needs. The PT, OT, or
                               physician may have no financial relationship with the supplier; and
                            3. the beneficiary is at high risk for development of a pressure ulcer
                               and is unable to perform a functional weight shift; or
                            4. the beneficiary utilizes intermittent catheterization for bladder
                               management and is unable to independently transfer from the
                               wheelchair to bed; or
                            5. the power seating system is needed to manage increased tone or
                               spasticity.
                            Power Wheelchair Drive Control Systems
                            An attendant control is covered in place of a beneficiary-operated drive
                            control system if the beneficiary meets coverage criteria for a
                            wheelchair, is unable to operate a manual or power wheelchair, and has
                            a caregiver who is unable to operate a manual wheelchair but is able to
                            operate a power wheelchair.
                            Other Power Wheelchair Accessories
                            An electronic interface (E2351) to allow a speech-generating device to be
                            operated by the power wheelchair control interface is covered if the
                            beneficiary has a covered speech-generating device.
                            Miscellaneous Accessories
                            An antirollback device (E0974) is covered if the beneficiary propels
                            himself/herself and needs the device because of ramps.
                            A safety belt/pelvic strap (E0978) is covered if the beneficiary has weak
                            upper body muscles, upper body instability, or muscle spasticity that
                            requires use of this item for proper positioning.
                            One example (not all-inclusive) of a covered indication for swingaway,
                            retractable, or removable hardware (E1028) would be to move the


OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   37
 A   P P     E    N   D I   X    B




                            component out of the way so that the beneficiary could perform a slide
                            transfer to a chair or bed.
                            A manual fully reclining back option (E1226) is covered if the
                            beneficiary has one or more of the following conditions:
                            1. The beneficiary is at high risk for development of a pressure ulcer
                               and is unable to perform a functional weight shift; or
                            2. The beneficiary utilizes intermittent catheterization for bladder
                               management and is unable to independently transfer from the
                               wheelchair to the bed.




OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   38
           A P P E N D I X ~ C




Table C-1: Population and Sample Sizes by Stratum, First Half of 2007

                                                                                   Population                                               Sample
Stratum         Definition                                          Claims       Expenditures          Suppliers        Claims        Expenditures             Suppliers
                 Standard power wheelchair
1                claims* by low-volume suppliers                      7,223        $28,949,132               2,352           125             $499,152               124
                 Standard power wheelchair
2                claims* by high-volume suppliers                   35,910       $144,354,060                   716          125             $502,989                94
                 All standard power wheelchair
1 and 2          claims*                                             43,133      $173,303,192                3,068           250          $1,002,141                218
                 Complex rehabilitation power
3                wheelchair claims**                                  3,001        $16,010,906               1,064           125             $665,200               113
                                                                                                                    +                                                    +
    Total                                                           46,134       $189,314,098               3,362            375          $1,667,341               325
* Healthcare Common Procedure Coding System (HCPCS) code K0823.
** HCPCS codes K0835–K0864.
+
  Suppliers’ figures do not sum to totals because of overlap (some suppliers in our sample provided standard and complex rehabilitation power wheelchairs).
Source: Office of Inspector General analysis of Medicare power wheelchair claims with dates of service from January 1 to June 30, 2007.




            OEI-04-09-00260                      MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                                    39
     A P P E N D I X ~ D



Table D-1: Estimates and Confidence Intervals for Power Wheelchair Error Rates, First Half of 2007

                                                                                Sample                                      95-Percent
Estimate Description                                                              Size        Point Estimate        Confidence Interval
                                                         All Power Wheelchairs
Wheelchair was medically unnecessary                                                 364                     8.9%          5.7%–13.5%
Beneficiary needed a manual wheelchair, cane, or walker                              364                     1.6%           0.5%–5.0%
Beneficiary needed a different power wheelchair                                      364                     7.3%          4.5%–11.5%
Beneficiary needed a less expensive power wheelchair                                 364                     0.9%           0.6%–1.4%
Beneficiary needed a more expensive power wheelchair                                 364                     3.0%           1.4%–6.3%
Reviewer could not determine specific power wheelchair that
beneficiary needed                                                                   364                     3.4%           1.6%–7.2%
Claim was insufficiently documented                                                  364                51.7%             44.5%–58.7%
Claim was undocumented                                                               364                     0.1%          0.02%–0.9%
No errors                                                                            364                39.3%             32.6%–46.5%
    Total errors                                                                     364                60.7%             53.5%–67.4%
                                             Standard Power Wheelchairs: All Suppliers
Wheelchair was medically unnecessary                                                 240                     7.8%          4.6%–12.9%
Beneficiary needed a manual wheelchair, cane, or walker                              240                     1.7%           0.5%–5.3%
Beneficiary needed a more expensive power wheelchair                                 240                     2.8%          1.16%–6.5%
Reviewer could not determine specific power wheelchair that
beneficiary needed                                                                   240                     3.3%           1.5%–7.5%
Claim was insufficiently documented                                                  240                53.1%             45.4%–60.6%
Claim was undocumented                                                               240                     0.1%          0.02%–1.0%
No errors                                                                            240                39.0%             31.9%–46.7%
    Total errors                                                          240                           61.0%             53.3%–68.2%
                                       Standard Power Wheelchairs: Low-Volume Suppliers
    Total errors                                                                     120                65.8%             56.9%–73.8%
                                      Standard Power Wheelchairs: High-Volume Suppliers
    Total errors                                                                     120                60.0%             51.0%–68.4%
                                             Complex Rehabilitation Power Wheelchairs
Wheelchair was medically unnecessary                                                 124                24.2%             17.5%–32.4%
Beneficiary needed a manual wheelchair                                               124                     0.8%           0.1%–5.4%
Beneficiary needed a less expensive power wheelchair                                 124                12.9%              8.1%–19.9%
Beneficiary needed a more expensive power wheelchair                                 124                     5.7%          2.7%–11.3%
Reviewer could not determine specific power wheelchair that
beneficiary needed                                                                   124                     4.8%          2.1%–10.3%
Claim was insufficiently documented                                                  124                32.3%             24.7%–40.8%
Claim was undocumented                                                               124                      0%              0%–2.9%
No errors                                                                            124                43.6%             35.2%–52.3%
    Total errors                                                                     124               56.5%*             47.7%–64.8%
* Point estimate is rounded from 56.45% to 56.5%.
Source: Office of Inspector General (OIG) medical record review of Medicare power wheelchair claims, 2010.




OEI-04-09-00260                     MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                        40
A   P P   E    N    D I      X       D




      Table D-2: Estimates and Confidence Intervals for Comparisons of Error Rates by Power
      Wheelchair Type, First Half of 2007
                                                                   Sample               Point                95-Percent
      Estimate Description                                           Size            Estimate        Confidence Interval               P-Value
                           Comparisons of Standard Versus Complex Rehabilitation Power Wheelchairs
      Difference in percentage of power
      wheelchairs that were medically unnecessary                       364            16.4%*                  8.0%–24.9%                0.0002
      Difference in percentage of power
      wheelchairs with claims that were
      insufficiently documented or were
      undocumented                                                      364           20.9%**                  9.8%–32.1%                0.0003
      * Twenty-four percent of complex rehabilitation power wheelchairs were medically unnecessary and 8 percent of standard power wheelchairs
      were medically unnecessary.
      ** Fifty-three percent of claims for standard power wheelchairs were insufficiently documented and 32 percent of claims for complex
      rehabilitation power wheelchairs were insufficiently documented.
      Source: OIG medical record review of Medicare power wheelchair claims, 2010.




      Table D-3: Estimates and Confidence Intervals for Inappropriate Payments for Power
      Wheelchairs With Errors, First Half of 2007
                                                             Sample                                             95-Percent Confidence
      Estimate Description                                     Size         Point Estimate*                                  Interval*
                                                            All Power Wheelchairs
      Insufficient documentation                                  364            $93,227,220                $80,467,932–$105,986,508
          Total errors                                            364            $95,182,002                $82,376,901–$107,987,103
                                               Standard Power Wheelchairs: All Suppliers
          Total errors                                            240            $89,983,213                $77,245,694–$102,720,732
                                               Complex Rehabilitation Power Wheelchairs
          Total errors                                            124             $5,198,789                     $3,884,930–$6,512,648
      * Dollar figures are rounded to the nearest whole dollar.
      Source: OIG medical record review of Medicare power wheelchair claims, 2010.




      OEI-04-09-00260                     MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                               41
A   P P   E    N    D I     X        D




      Table D-4: Estimates and Confidence Intervals for Error Rates and Inappropriate Payments
      for Power Options and Accessories, First Half of 2007
                                                                               Sample              Point              95-Percent
      Estimate Description                                                       Size           Estimate      Confidence Interval
      Power option or accessory was medically unnecessary
      or insufficiently documented                                                    556         19.4%             14.5%–25.6%
      Power option or accessory was medically unnecessary                             556          3.8%               2.2%–6.3%
      Power option or accessory was insufficiently
      documented                                                                      556         15.7%             11.2%–21.5%
      One or more options or accessories provided with
      power wheelchair were medically unnecessary                                     108         13.9%              8.6%–21.6%
      Power option or accessory error                                                 556     $1,908,688      $856,598–$2,960,778
      Note: Dollar figures are rounded to the nearest whole dollar.
      Source: OIG medical record review of Medicare power wheelchair claims, 2010.




      Table D-5: Estimates and Confidence Intervals for Types of Errors in Physicians’ Records
      for Claims With No Errors Based on Suppliers’ Records, First Half of 2007
                                                                                     Sample           Point            95-Percent
      Estimate Description                                                             Size        Estimate    Confidence Interval
      Claims for power wheelchairs that were medically
      necessary based on supplier record but medically
      unnecessary based on physician record                                             121           6.9%            2.4%–18.2%
      Claims for power wheelchairs that were medically
      necessary based on supplier record but insufficiently
      documented based on physician record                                              121          62.1%           49.1%–73.6%
      Claims for power wheelchairs that were medically
      necessary based on supplier record but undocumented
      based on physician record                                                         121           8.7%            3.7%–19.1%
      Claims for power wheelchairs that were medically
      necessary based on supplier record but medically
      unnecessary, insufficiently documented, or undocumented
      based on physician record                                                         121          77.7%           65.7%–86.4%
      Source: OIG medical record review of Medicare power wheelchair claims, 2010.




      OEI-04-09-00260                    MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                   42
A   P P   E NP DP I E X N DD I X ~ D
          A
    



          Table D-6: Estimates and Confidence Intervals for Combined Error Rate Across Three
          Reports, First Half of 2007
                                                                                                  Point        95-Percent Confidence
          Estimate Description                                            Sample Size          Estimate                      Interval
          Combined error rate—claims reviewed in all three
          reports                                                                    339          79.8%                     72.9%–85.4%
          Combined error rate—claims reviewed in at least
          one report                                                                 365          78.9%                     72.2%–84.3%
          Sources: OIG medical record review of Medicare power wheelchair claims, 2010; HHS OIG, Miscoded Claims for Power Wheelchairs in the
          Medicare Program, OEI-04-07-00403, July 2009; and HHS OIG, Medicare Power Wheelchair Claims Frequently Did Not Meet Documentation
          Requirements, OEI-04-07-00401, December 2009.




     OEI-04-09-00260                  MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                           43
 A P PEN D                          x        E




Agency Comments


   ...."".or...'"
 (~.#               DEPARl'MENT OF HEACfH & HUMAN SERVlCFS                                Centers lor Medicare & Medicaid Services


                                                                                          Ad",inistrator
                                                                                          Washington. DC 20201




                    DATE:          APR 2 7 2011
                    TO:           Daniel R. Levinson
                                  Inspector General

                    FROM:         Donald M. Berwick. M.D.    /S/
                                  Administrator

                    SUBJECT:      Office ofInspector General (OIG) Draft Report: "Most Power
                                  Wheelchairs in the Medicare Program Did Not Meet Medical Necessity
                                  Guidelines" (OEl-04-09.Q0260)


                    Thank you for the opportunity to review and comment on the above OlG draft report.
                    The Centers for Medicare & Medicaid Services (eMS) appreciates the time and resources
                    DIG has invested in determining the extent to wbich Medicare improperly paid claims for
                    powerwheelcbairs. eMS is keenly focused on tbe issues related to power wheelchairs in
                    the Medicare program. We appreciate DIG's work in this area. Since 2009. OlG has
                    issued two reports based on the same sample of claims used in this study that assessed
                    compliance wi th different Medicare requirements for power wheelchairs. Across the
                    three reports, the 010 found that 80 percent of power wheelchairs provided in the first
                    half of 2007 did not meet Medicare requirements. This particular study found that 61
                    percent ofpower wheelchair claims were not medically necessary or lacked sufficient
                    documentation to determine medical necessity. eMS understands that inadequate and/or
                    insufficient documentation is a significant problem associated with power wheelchair
                    claims.

                    As mentioned in the report, eMS is actively engaged in improving provider and supplier
                    compliance with Medicare's power wheelchair requirements. In January 2011, eMS
                    updated the payment policy for power wheelchairs, eliminating the up-front purchase
                    option and keeping the rent-to-own option. Previously, Medicare allowed for either an
                    up-front purchase or a rental period that would lead to ownership after 13 months. The 13
                    month period allows additional opportunities for eMS to potentially conduct review on
                    power wheelchair claims.

                     The CMS continues to support efforts to reduce improper power wheelchair payments,
                     including increased prepayment reviews of power wheelchairs. Moreover, eMS plans to
                     pursue additional provider and supplier education to ensure suppliers and prescribing
                     physicians understand Medicare's coverage and documentation requirements for power
                     wheelchairs.




OEI·04·09·00260                    MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES                         44
A    P P     E   N    D I   X     E




    OEI-04-09-00260             MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   45
A   P P   E   N   D I   X   E




    OEI-04-09-00260         MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   46
A   P P     E     N   D I   X        E




OEI-04-09-00260                 MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   47
     A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Dwayne Grant,
                  Regional Inspector General for Evaluation and Inspections in the
                  Atlanta regional office, and Sarah Ambrose and Jaime Durley, Deputy
                  Regional Inspectors General.
                  Other principal Office of Evaluation and Inspections staff from the
                  Atlanta regional office who contributed to the report include
                  Holly Williams; central office staff who contributed include
                  Berivan Demir Neubert, Kevin Farber, and Scott Manley.




OEI-04-09-00260   MOST MEDICARE POWER WHEELCHAIRS DID NOT MEET MEDICAL NECESSITY GUIDELINES   48
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health & Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
